              Audit Report



Auxiliary Beneficiaries Who Do Not
 Have Their Own Social Security
             Number




      A-01-14-14036 | September 2014
MEMORANDUM


Date:      September 29, 2014                                                Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Auxiliary Beneficiaries Who Do Not Have Their Own Social Security Number (A-01-14-14036)

           The attached final report presents the results of our audit. Our objective was to evaluate Title II
           auxiliary beneficiaries who did not have their own Social Security number and quantify incorrect
           payments to those who died.

           Please provide within 60 days a corrective action plan that addresses each recommendation. If
           you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                          Patrick P. O’Carroll, Jr.

           Attachment
Auxiliary Beneficiaries Who Do Not Have Their Own Social
Security Number
A-01-14-14036
September 2014                                                              Office of Audit Report Summary

Objective                                   Our Findings

To evaluate Title II auxiliary              Our current review identified fewer (80-percent decrease) Title II
beneficiaries who did not have their        auxiliary beneficiaries who did not have their own SSN on the
own Social Security number (SSN) and        MBR than our 2008 review identified. In addition, we
quantify incorrect payments to those        determined—with SSA’s assistance—that three auxiliary
who died.                                   beneficiaries were deceased and improperly paid $136,153 in
                                            benefits after death.
Background
                                            As of June 2014, SSA had updated 597 (5 percent) of the
Auxiliary beneficiaries are children,       12,370 auxiliary beneficiary records with an SSN. Of the
widows, spouses, and parents who            11,773 auxiliary beneficiaries without an SSN, 594 (5 percent) were
receive Title II Social Security benefits   first entitled to benefits after May 1989 and, according to the
based on another wage earner‘s Social       Social Security Act, required to have an SSN on the MBR or have
Security record. As such, the Social        applied for an SSN. The remaining 11,179 (95 percent) auxiliary
Security Administration (SSA) uses          beneficiaries without an SSN were entitled to benefits before
the primary wage earner’s—not the           June 1989 and therefore not required to have an SSN on the MBR
auxiliary beneficiary’s—SSN to track        or have applied for an SSN. However, having an SSN on the
the auxiliary’s benefit payments on the     MBR—regardless of the date of entitlement—improves SSA’s
Master Beneficiary Record (MBR).            ability to prevent improper payments since the Agency bases most
                                            of its data matching on the SSN.
The Social Security Act requires that
individuals first entitled to benefits as   As of June 2014, more than 5,000 of the 11,773 auxiliary
of June 1, 1989 or later, must have, or     beneficiaries without an SSN were age 90 or older. These
have applied for, an SSN to receive         individuals will most likely continue receiving benefits until their
Title II benefits.                          deaths; and if the SSN is not on the MBR, SSA may not be able to
                                            timely identify and terminate benefit payments at the time of death.
In 2008, we conducted a review that
identified 63,134 Title II auxiliary        Our Recommendations
beneficiaries who did not have their
own SSN on the MBR. To conduct              1. Update the MBR with the SSNs for the 594 auxiliary
our current review, we obtained a file         beneficiaries entitled to benefits after May 1989.
of 12,370 Title II auxiliary
beneficiaries who were receiving            2. Take additional steps to ensure aged auxiliary beneficiaries
benefits as of July 2013 and whose             without an SSN are alive.
SSNs were missing from the MBR.
                                            SSA agreed with Recommendation 1, but disagreed with
                                            Recommendation 2.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Why Auxiliary Beneficiaries May Not Have an SSN ...............................................................3
     Auxiliary Beneficiaries Who Appeared Deceased ....................................................................4
     Additional Effects of Missing SSNs ..........................................................................................6
Conclusions ......................................................................................................................................6
Recommendations ............................................................................................................................7
Agency Comments ...........................................................................................................................7
OIG Response ..................................................................................................................................7
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Agency Comments .............................................................................................. B-1
Appendix C – Major Contributors.............................................................................................. C-1




Auxiliary Beneficiaries Who Do Not Have Their Own SSN (A-01-14-14036)
ABBREVIATIONS
BOAN                Beneficiary’s Own Account Number

C.F.R.              Code of Federal Regulations

DACUS               Death Alert, Control and Update System

EVS                 Enumeration Verification System

MBR                 Master Beneficiary Record

OI                  Office of Investigations

OIG                 Office of the Inspector General

POMS                Program Operations Manual System

Pub. L. No.         Public Law Number

SSA                 Social Security Administration

SSN                 Social Security Number

U.S.C.              United States Code




Auxiliary Beneficiaries Who Do Not Have Their Own SSN (A-01-14-14036)
OBJECTIVE
Our objective was to evaluate Title II auxiliary beneficiaries who did not have their own Social
Security number (SSN) and quantify incorrect payments to those who died.

BACKGROUND
Auxiliary beneficiaries are children, widows, spouses, and parents who receive Title II benefits
based on another wage earner’s Social Security record. 1 As such, the Social Security
Administration (SSA) uses the primary wage earner’s—not the auxiliary beneficiary’s—SSN to
track the auxiliary’s benefit payments on the Master Beneficiary Record (MBR). SSA
commonly refers to the auxiliary beneficiary’s SSN as the Beneficiary’s Own Account Number
(BOAN). In March 2014, SSA paid benefits to over 58 million Title II beneficiaries; over
11 million of these were auxiliary beneficiaries. 2

The Social Security Act requires that individuals first entitled to benefits as of June 1, 1989 or
later, must have, or have applied for, an SSN to receive Title II benefits. 3 To comply with this
law, SSA’s BOAN Verification System monitors the MBR to ensure all auxiliary beneficiaries
receiving benefits have an SSN. The System identifies auxiliary beneficiaries in current pay
status without an SSN, verifies—if available—the SSN, and updates the MBR. If an SSN is not
verified, the System generates an exception report to the appropriate SSA field offices for
correction.

SSA uses SSNs to organize information about individuals and their entitlement to benefits. For
example, to terminate payments after death, SSA’s Death Alert, Control and Update System
(DACUS) obtains death information and matches the deceased individuals’ names and SSNs to
SSA’s benefit records. 4 A missing SSN can prevent SSA’s systems from identifying deceased
auxiliary beneficiaries and timely terminating benefit payments.

Since 2002, we have conducted two reviews that identified approximately $12.7 million
incorrectly paid to deceased auxiliary beneficiaries missing an SSN, see Table 1. 5 For these



1
    Social Security Act § 202 (b) – (h), 42 U.S.C. § 402 (b) – (h).
2
    SSA, Monthly Statistical Snapshot, March 2014.
3
    Pub. L. No. 100-647, Title VIII, Subtitle A, § 8009, 102 Stat. 3342, 3789; 42 U.S.C. § 405(c)(2)(F).
4
 DACUS receives death information from various sources including States, Department of Health and Human
Services’ Centers for Medicare and Medicaid Systems, and Department of Veterans Affairs. SSA, Program
Operations Manual System (POMS), GN 02602.060 (August 4, 2014).
5
 SSA OIG, Impact on the Social Security Administration’s Programs When Auxiliary Beneficiaries Do Not Have
Their Own Social Security Numbers (A-01-02-22006), September 2002 and Follow-up on the Impact on the Social
Security Administration’s Programs When Auxiliary Beneficiaries Do Not Have Their Own Social Security Numbers
(A-01-07-17038), March 2008.



Auxiliary Beneficiaries Who Do Not Have Their Own SSN (A-01-14-14036)                                      1
reviews, SSA generally agreed with our recommendations to take all feasible steps to add the
SSN of all auxiliary beneficiaries currently receiving benefits to the MBR.

                                          Table 1: Prior Audit Results

                                    Title II Auxiliary                Deceased Title II
                                                                                              Benefits Paid
          Report Date             Beneficiaries Without             Auxiliary Beneficiaries
                                                                                              After Death
                                         an SSN                       Without an SSN
        September 2002                      126,471                          181              $5.2 million
          March 2008                         63,134                          272              $7.5 million

To conduct our current review, we obtained a file of 12,370 Title II auxiliary beneficiaries who
were receiving benefits as of July 2013 and whose SSNs were missing from the MBR. See
Appendix A for our scope and methodology.

RESULTS OF REVIEW
We identified significantly fewer (80-percent decrease) Title II auxiliary beneficiaries without
their own SSN on the MBR than we identified in our 2008 review. 6 In addition, we
determined—with SSA’s assistance—that three auxiliary beneficiaries were deceased and
improperly paid $136,153 in benefits after death.

As of June 2014, SSA had updated 597 (5 percent) of the 12,370 auxiliary beneficiary records
with an SSN. Of the 11,773 auxiliary beneficiaries who still did not have an SSN,
594 (5 percent) were first entitled to benefits after May 1989 and, according to the Social
Security Act, 7 required to have an SSN on the MBR or have applied for an SSN. The remaining
11,179 (95 percent) auxiliary beneficiaries without an SSN were entitled to benefits before
June 1989 and therefore not required to have an SSN on the MBR or have applied for an SSN.
See Table 2. However, having an SSN on the MBR—regardless of the date of entitlement—
improves SSA’s ability to prevent improper payments since the Agency bases most of its data
matching on the SSN.




6
 SSA OIG, Follow-up on the Impact on the Social Security Administration’s Programs When Auxiliary
Beneficiaries Do Not Have Their Own Social Security Numbers (A-01-07-17038), March 2008.
7
    Social Security Act § 205(c)(2)(F), 42 U.S.C. § 405(c)(2)(F).



Auxiliary Beneficiaries Who Do Not Have Their Own SSN (A-01-14-14036)                                         2
            Table 2: Population of Auxiliary Beneficiaries’ SSN Status as of June 2014
                                                   First Entitled                                     Total
                                                                          First Entitled
                                                    Before June                                     Auxiliary
                                                                         After May 1989
                                                       1989                                        Beneficiaries
     Population of Auxiliary
                                                  11,307 8       91%        1,063 9       9%            12,370
     Beneficiaries as July 2013
     Auxiliary Beneficiaries updated
                                                       128       21%           469       79%                597
     with an SSN as of June 2014
     Auxiliary Beneficiaries Without an
                                                   11,179        95%           594        5%            11,773
     SSN as of June 2014

Why Auxiliary Beneficiaries May Not Have an SSN
According to SSA, the 12,370 auxiliary beneficiaries identified as not having an SSN were
entitled to receive benefits; however, the timing between receiving benefits and obtaining an
SSN is a known issue for auxiliary beneficiaries outside the United States. For instance, SSA
reported this situation may occur when auxiliary beneficiaries reside in foreign countries and
travel a great distance to apply for benefits (usually at an SSA foreign service post located in a
U.S. Embassy), yet may be missing some necessary documentation for SSN purposes. 10 In this
situation, SSA might place auxiliary beneficiaries in current pay with instructions to return to the
office with the missing paperwork. Of the 12,370 auxiliary beneficiaries identified without an
SSN, 10,242 (83 percent) resided outside the United States, see Table 3.




8
  Of the 11,307 auxiliary beneficiaries first entitled to benefits before June 1989 and not required to have an SSN on
the MBR, 1,246 (11 percent) resided in the United States and 10,061 (89 percent) resided outside the United States.
9
 Of the 1,063 auxiliary beneficiaries first entitled to benefits after May 1989 and required to have an SSN on the
MBR, 882 (83 percent) resided in the United States and 181 (17 percent) resided outside the United States.
10
  Documents to determine the identity of an SSN applicant include valid U.S. driver’s license, U.S. Passport,
Certificate of Citizenship, etc. SSA, POMS, RM 10210.420 (June 20, 2014).



Auxiliary Beneficiaries Who Do Not Have Their Own SSN (A-01-14-14036)                                                3
            Table 3: Countries Where Auxiliary Beneficiaries Missing an SSN Reside

                                      Title II Auxiliary                Percentage of Title II
                  Country          Beneficiaries Without an            Auxiliary Beneficiaries
                                             SSN                          Without an SSN
               Italy                           1,100                             8.9%
               Philippines                     1,272                            10.3%
               Mexico                          2,096                            16.9%
               Canada                          2,407                            19.5%
               Other                           3,367                            27.2%
                  Sub-Total                   10,242                            82.8%
               United States                   2,128                            17.2%
                  TOTAL                       12,370                           100.0%

SSA also described an uncommon situation occurring in the United States. For example, a
parent may withhold his/her children’s paperwork from another parent. In this situation, SSA
might also place auxiliary beneficiaries in current pay with instructions to return with the missing
paperwork.

SSA’s automated process identifies auxiliary beneficiaries without an SSN. Specifically, the
BOAN Verification System monitors the MBR and (a) selects auxiliary beneficiaries in current
pay status whose SSNs are unverified or missing; (b) verifies the SSN, if available; (c) updates
the MBR; and (d) sends exceptions to SSA field offices for corrective action. 11 In addition, SSA
is exploring methods to enhance its international process, including enumerating individuals at
the time of benefit application.

Auxiliary Beneficiaries Who Appeared Deceased
We initially identified 33 auxiliary beneficiaries who appeared to be deceased and were paid
benefits after death. 12 With SSA’s assistance, we determined the following.

     Twenty-nine were alive and matched to another—comparably named—individual’s death
      record.

     Three were deceased and improperly paid $136,153 after death for an average of 51 months.



11
     SSA, POMS, SM 03003.005 A (March 22, 2013).
12
  Initially, we ran the 12,370 names and dates of birth (without an SSN on the MBR) through SSA’s Enumeration
Verification System and identified possible SSNs for 1,632 beneficiaries. We then matched the 1,632 possible SSNs
to SSA’s Death Master File and conducted additional analysis to identify 33 possible deceased auxiliary
beneficiaries. All 33 auxiliary beneficiaries who appeared to be deceased were entitled to benefits before June 1989,
and therefore, not required to have an SSN on record at the time of entitlement.



Auxiliary Beneficiaries Who Do Not Have Their Own SSN (A-01-14-14036)                                              4
         One individual died in August 2009, and SSA continued paying benefits through
          January 2014. As a result, this individual was improperly paid $71,854 for over 4 years.
          Our Office of Investigations (OI) determined possible fraud occurred in this case; it was
          accepted for prosecution by the County Prosecutor’s Office.

         One individual died in January 2009, and SSA continued paying benefits through
          March 2014. As a result, this individual was improperly paid $14,384 for over 4 years.
          While the SSA overpayment amount is below prosecutorial guidelines, a second Federal
          agency also lost funds and our investigators are coordinating with them.

         One individual died in July 2010, and SSA continued paying benefits through May 2014.
          As a result, this individual was improperly paid $49,915 for over 3 years. OI investigated
          and the individual’s daughter confessed to receiving her mother’s benefits after death and
          agreed to repay SSA.

    One whose $80 in monthly benefit payments were suspended as of April 2014 because the
     beneficiary’s residence was unknown. As of September 2014, this individual’s benefit
     payments remained suspended.

As of June 2014, 9,865 (84 percent) of the 11,773 auxiliary beneficiaries without an SSN were
age 65 or older, see Table 4. These individuals will most likely continue receiving benefits until
their deaths. Furthermore, 5,072 of these auxiliary beneficiaries without an SSN were aged 90 or
older. 13

The life expectancy for an individual who is aged 90 is 4.5 years, and the life expectancy for an
individual who is 100 years or older is 2.2 years. 14 Since the SSNs are not on the MBR, SSA’s
death matching processes may not timely identify and stop these benefits when the person dies.

            Table 4: Auxiliary Beneficiaries Without an SSN by Age as of June 2014
                                     Entitled Before         Entitled After
                  Age                                                                       Total
                                       June 1989              May 1989
         Under 65 years old                1,439                    469                1,908         16.2%
         65 to 79 years old                1,243                     94                1,337         11.4%
         80 to 89 years old                3,430                     26                3,456         29.3%
         90 to 99 years old                4,821                      5                4,826         41.0%
         100 years or over                   246                      0                  246          2.1%
               TOTAL                       11,179                    594             11,773         100.0%


13
  Of these 5,072 auxiliary beneficiaries without an SSN, 349 (7 percent) resided in the United States and
4,723 (93 percent) resided outside the United States.
14
  Department of Health and Human Services, Center for Disease Control and Prevention, National Vital Statistics
Report, Vol. 61, No. 3, Table 1, September 24, 2012, p. 11.



Auxiliary Beneficiaries Who Do Not Have Their Own SSN (A-01-14-14036)                                             5
SSA’s centenarian project has been conducted the past few years to ensure the Agency pays
benefits to eligible, living beneficiaries who are at or near 100 years of age. 15 For example, SSA
may schedule telephone interviews with these beneficiaries to confirm whether they are alive.
During SSA’s study of centenarians in 2012, the Agency identified several deceased widows still
receiving benefits many years after their date of death because the widows’ SSNs were missing
from the MBR. As a result, SSA conducted a special project that found 222 widows and aged
spouses were improperly paid $12 million in benefits after their dates of deaths. 16

SSA should consider whether telephone interviews, contact letters, or other steps should be taken
for aged auxiliary beneficiaries without an SSN.

Additional Effects of Missing SSNs
For 7 of the 597 auxiliary beneficiary records updated with an SSN, SSA assessed over
$30,000 in overpayments for reasons other than death. Auxiliary beneficiaries not being present
in the United States for extended periods 17 and unrecognized income caused these overpayments.
For example, SSA assessed one overpayment of over $10,000 because the Agency had not
recorded all of the auxiliary beneficiary’s Title II income on his Title XVI record. 18

Typically, when an auxiliary beneficiary’s record has an SSN, SSA’s data matches are effective;
however, without an SSN, SSA’s data matches are less effective, and therefore, may not detect
improper payments. If SSA adds SSNs to the remaining 11,773 auxiliary beneficiary records,
the Agency may identify and/or prevent additional improper payments.

CONCLUSIONS
In comparison to our 2008 review, we identified an 80-percent decrease in Title II auxiliary
beneficiaries without their own SSN on the MBR. 19 In addition, we determined—with SSA’s
assistance—that three auxiliary beneficiaries were deceased and improperly paid $136,153 in
benefits after death. Having an SSN on the MBR—regardless of the date of entitlement—




15
     SSA, POMS GN 02602.500 (April 2, 2013).
16
  SSA Office of Budget, Finance, Quality, and Management, Entitled Aged Spouses or Widows Without Their Own
Social Security Numbers on the Master Beneficiary Record, June 2014. This report also noted that nearly
$4.5 million of the $12 million had been recovered by SSA. This study excluded beneficiaries living outside the
United States.
17
  SSA suspends payments to beneficiaries who are not U.S. citizens and no longer lawfully present in the United
States. SSA, POMS, RS 00204.010 (May 9, 2011).
18
  Title XVI is a needs-based program where eligibility, in part, is dependent on the individual’s income—including
Title II benefits. Social Security Act § 1602, 42 U.S.C. 1381a; see also 20 C.F.R, § 416.110.
19
  SSA OIG, Follow-up on the Impact on the Social Security Administration’s Programs When Auxiliary
Beneficiaries Do Not Have Their Own Social Security Numbers (A-01-07-17038), March 2008.



Auxiliary Beneficiaries Who Do Not Have Their Own SSN (A-01-14-14036)                                             6
improves SSA’s ability to prevent improper payments since the Agency bases most of its data
matching on the SSN.

RECOMMENDATIONS
We recommend that SSA:

1. Update the MBR with the SSNs for the 594 auxiliary beneficiaries entitled to benefits after
   May 1989.

2. Take additional steps to ensure aged auxiliary beneficiaries without an SSN are alive.

AGENCY COMMENTS
SSA agreed with Recommendation 1, but disagreed with Recommendation 2. SSA disagreed
because aged auxiliary beneficiaries are subject to the same policies and full processing
procedures as non-aged beneficiaries, such as benefit suspension for not responding or refusal to
apply for a SSN. SSA agreed it was important to ensure aged auxiliary beneficiaries without an
SSN were alive; however, the Agency also believed current policies and safeguards were
appropriate to meet program needs. See Appendix B.

OIG RESPONSE
Our report demonstrates a need for SSA to take additional steps to ensure that aged auxiliary
beneficiaries without an SSN are alive. Specifically, we identified—with SSA’s current policies
and safeguards in place—three individuals (more than 80 years old each) improperly paid
$136,153 after death for an average of 51 months.

In addition, as of July 2013, we identified 12,370 auxiliary beneficiary records without an SSN
on the MBR. Approximately a year later, SSA’s systems updated 597 (5 percent) of these
records with an SSN and 11,773 (95 percent) remained without an SSN. Furthermore, of the
11,773 auxiliary beneficiaries’ without an SSN, 8,528 (72 percent) were aged 80 or older. 20

As the Agency bases most of its data matching—including death matches—on the SSN, having
an SSN on the MBR—regardless of the date of entitlement or presence in the United States—
improves SSA’s ability to prevent improper payments.




20
  Of these 8,528 auxiliary beneficiaries without an SSN, 576 (7 percent) resided in the United States and
7,952 (93 percent) resided outside the United States.



Auxiliary Beneficiaries Who Do Not Have Their Own SSN (A-01-14-14036)                                       7
                                      APPENDICES




Auxiliary Beneficiaries Who Do Not Have Their Own SSN (A-01-14-14036)
Appendix A – SCOPE AND METHODOLOGY
To conduct our review, we

     Reviewed applicable sections of the Social Security Act and the Social Security
      Administration’s (SSA) regulations, policies, and procedures.

     Reviewed prior Office of the Inspector General reports.

     Obtained a file of 12,370 Title II auxiliary beneficiaries who were receiving benefits as of
      July 2013 and whose own Social Security number (SSN) was missing from the Master
      Beneficiary Record.

     From the file of 12,370 auxiliary beneficiaries, we

          identified possible SSNs for 1,632 auxiliary beneficiaries using SSA’s Enumeration
           Verification System (EVS) with output code “A.” 1

          matched the 1,632 possible SSNs to SSA’s Death Master File and identified 50 auxiliary
           beneficiaries who appeared to be deceased.

          analyzed the 50 auxiliary beneficiaries who appeared to be deceased and determined that
           33 appeared to be receiving benefits after death as of November 2013.

          provided these 33 cases to our Office of Investigations (OI) to determine whether any
           fraud activity took place.

          provided 31 of the 33 cases (outside the United States) to SSA’s Office of Operations for
           review and appropriate administrative action.

          documented SSA’s and OI’s actions including quantifying improper payments after death
           and fraud investigations.

          identified records where SSA added an SSN as of June 2014 and overpayments assessed
           for reasons other than death.

          identified records where auxiliary beneficiaries were first entitled to benefits in June 1989
           or later.

We conducted our audit between December 2013 and June 2014 in Boston, Massachusetts. The
principal entities audited were SSA’s field offices under the Offices of the Deputy Commissioner
of Operations and Systems. We conducted this performance audit in accordance with generally



1
    EVS verifies SSNs, names, and dates of birth to SSA’s records.



Auxiliary Beneficiaries Who Do Not Have Their Own SSN (A-01-14-14036)                                A-1
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested the data obtained for our audit and
determined them to be sufficiently reliable to meet our objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.




Auxiliary Beneficiaries Who Do Not Have Their Own SSN (A-01-14-14036)                           A-2
Appendix B – AGENCY COMMENTS




                                   SOCIAL SECURITY

MEMORANDUM


Date:      September 9, 2014                                                Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Auxiliary Beneficiaries Who Do Not Have
           Their Own Social Security Number” (A-01-14-14036) - INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached
           comments.

           Please let me know if we can be of further assistance. Your may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




Auxiliary Beneficiaries Who Do Not Have Their Own SSN (A-01-14-14036)                             B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “AUXILIARY BENEFICIARIES WHO DO NOT HAVE THEIR OWN
SOCIAL SECURITY NUMBER” (A-01-14-14036)


Recommendation 1

Update the MBR with the SSNs for the 594 auxiliary beneficiaries entitled to benefits after
May 1989.

Response

We agree. We plan to update the Master Beneficiary Record (MBR) as appropriate for those
auxiliary beneficiaries identified who are in current pay status and were entitled to benefits after
May 1989, by the end of fiscal year 2015.

We will not investigate cases in which payments were already in terminated status, which were
10 percent of the 594 auxiliary beneficiaries cited in the report, as it would not be a prudent use
of our resources. In addition, we will not take action on auxiliary beneficiaries whose payments
were placed in miscellaneous suspense status because they were first entitled to benefits after
May 1989 and refused enumeration.

Recommendation 2

Take additional steps to ensure aged auxiliary beneficiaries without an SSN are alive.

Response

We disagree. Aged auxiliary beneficiaries are subject to the same policies and full processing
procedures as non-aged beneficiaries, such as benefit suspension for not responding or refusal to
apply for a Social Security number (SSN). We agree it is important to ensure aged auxiliaries
without an SSN are alive, which is why we have well-established policies and programs in place
to verify that these individuals are still living. We believe our current safeguards are appropriate
to meet our program needs.

Our Beneficiary’s Own Account Number (BOAN) Verification System cited in the report on
page 1, “Background” section, describes how we monitor auxiliaries residing in the United
States.

We understand that OIG is particularly concerned with the population of aged auxiliary
beneficiaries living outside of the United States. As the report indicates, 93 percent of the
auxiliary beneficiaries without an SSN, who were age 90 or older, lived outside of the United
States. However, we have the following processes in place to ensure that aged and non-aged
beneficiaries who live outside of the United States are alive—including aged auxiliaries without
an SSN.


Auxiliary Beneficiaries Who Do Not Have Their Own SSN (A-01-14-14036)                             B-2
•   Foreign Enforcement Program - This process verifies the existence and identity of
    beneficiaries of all ages living abroad either annually or biennially. We contact
    beneficiaries age 90 and over annually.
•   Nonagenarian and Centenarian Program - This process includes in-person contacts with
    each foreign beneficiary in the year he or she attains age 97 or 100.
•   Totalization Data Exchange - Countries with which we have totalization agreements provide
    us death information for auxiliaries and beneficiaries, and we initiate contact with each
    identified individual to confirm the accuracy of the death report.

Furthermore, the absence of a BOAN is not relevant to these processes. Rather, these programs
identify auxiliaries based on a combination of the numberholders’ SSNs and the claimants’ own
beneficiary identification codes, not by BOANs. We may select individual cases for review
based on the auxiliary’s recorded date of birth. In addition, we require all foreign beneficiaries
to respond to our contacts in person, by telephone, or by mail. Non-responders are subject to
suspension of monthly benefits.




Auxiliary Beneficiaries Who Do Not Have Their Own SSN (A-01-14-14036)                           B-3
Appendix C – MAJOR CONTRIBUTORS
Judith Oliveira, Director, Boston Audit Division

David Mazzola, Audit Manager

Katie Toli, Auditor

Kevin Joyce, IT Specialist




Auxiliary Beneficiaries Who Do Not Have Their Own SSN (A-01-14-14036)   C-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
